No. 19-1328

In the Supreme Court of the United States
DEPARTMENT OF JUSTICE, PETITIONER
v.
HOUSE COMMITTEE ON THE JUDICIARY
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITIONER’S SUGGESTION OF MOOTNESS AND
MOTION TO VACATE THE JUDGMENT
OF THE COURT OF APPEALS

EDWIN S. KNEEDLER
Deputy Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 19-1328
DEPARTMENT OF JUSTICE, PETITIONER
v.
HOUSE COMMITTEE ON THE JUDICIARY
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITIONER’S SUGGESTION OF MOOTNESS AND
MOTION TO VACATE THE JUDGMENT
OF THE COURT OF APPEALS

Pursuant to this Court’s Rule 21.2(b), petitioner the
Department of Justice respectfully moves that the
Court vacate the judgment of the court of appeals in this
case and remand with instructions to vacate the district
court’s order.
1. This case involves an application filed by the
House of Representatives Committee on the Judiciary
of the 116th Congress for access to grand jury materials
compiled in the course of a Special Counsel investigation. 1 The Committee sought those materials in furtherance of an impeachment investigation the Committee was conducting of then-President Trump. Although
grand jury materials are ordinarily secret, the district
See Robert S. Mueller, U.S. Dep’t of Justice, Report On The Investigation Into Russian Interference In The 2016 Presidential Election, https://www.justice.gov/archives/sco/file/1373816/download.
1

(1)

2
court held that Federal Rule of Criminal Procedure
6(e)(3)(E)(i), which permits disclosure of such materials
“preliminarily to or in connection with a judicial proceeding,” authorized the requested disclosure. See Pet.
App. 82a-179a. The court reasoned that a Senate impeachment trial is a “judicial proceeding” within the
meaning of that Rule, and that use of the materials as
part of the Committee’s investigation of whether to recommend articles of impeachment for consideration by
the House of Representatives would therefore be “preliminarily to or in connection with a judicial proceeding.” Fed. R. Crim. P. 6(e)(3)(E)(i); see Pet. App. 110a144a. The court further concluded that the Committee’s
investigation concerning the possible impeachment of
President Trump was sufficiently advanced to be preliminary to a possible Senate impeachment trial. Pet.
App. 144a-163a. The court accordingly granted the
Committee’s application and ordered the Department
of Justice to provide the Committee with access to the
grand jury materials at issue. Id. at 178a-179a. The
court of appeals affirmed. Id. at 1a-81a.
This Court granted a stay of the court of appeals’
mandate—suspending the Department’s authority and
obligation to disclose the secret grand jury materials to
the Committee—and subsequently granted a writ of
certiorari to address whether a Senate impeachment
trial is a “judicial proceeding” within the meaning of
Rule 6(e). This Court set the case for argument on December 2, 2020.
2. On November 17, 2020, the Committee moved the
Court to remove the case from the argument calendar
on the ground that, following the convening of a new
Congress in the first week of January 2021 and the inauguration of a new President on January 20, 2021, “the

3
newly constituted Committee will have to determine
whether it wishes to continue pursuing the application
for the grand-jury materials that gave rise to this case.”
Mot. to Recalendar Arg. 2. This Court granted that motion on November 20, 2020.
3. Since that time, President Trump’s term in office
has expired, and the newly constituted Committee in
the 117th Congress has taken no steps to formally assert a request for the grand jury materials at issue in
this case for use in a duly authorized investigation concerning the possible impeachment of now-former President Trump. Thus, although the House of Representatives of the 116th Congress passed resolutions authorizing the Committee to petition for access to the grand
jury materials “pursuant to Federal Rule of Criminal
Procedure 6(e), including Rule 6(e)(3)(E),” H.R. Res. 430,
116th Cong., 1st Sess. 1-2 (2019), and to carry out “investigations * * * into whether sufficient grounds exist
for the House of Representatives to exercise its Constitutional power to impeach,” H.R. Res. 660, 116th Cong., 1st
Sess. 1 (2019), the House of Representatives of the 117th
Congress has passed no comparable authorizations. 2
Because both President Trump’s term in office and
the 116th Congress have expired, and because the
While the Committee constituted during the 116th Congress had
issued a subpoena to then-Attorney General William P. Barr seeking the grand jury materials at issue, see C.A. App. 190-192, the
newly constituted Committee has not issued any such subpoena in
the 117th Congress. Even if it had, because the current Committee
has not been authorized to receive grand jury materials or conduct
an impeachment investigation, any such subpoena could not furnish
a basis for access to grand jury materials in the present circumstances even if the courts below correctly construed Rule 6(e)(3)(E)(i)
to authorize the providing of grand jury materials to the Committee
for use in a duly authorized and active impeachment investigation.
2

4
newly constituted Judiciary Committee has not formally asserted any basis for access to the grand jury
materials at issue for use in a duly authorized investigation concerning the possible impeachment of former
President Trump, there is no longer a live controversy
over whether Rule 6(e) permitted the district court to
authorize and direct the Department of Justice to provide the grand jury materials to the Committee for use
in the impeachment investigation it was then conducting.
4. This Court’s ordinary practice in the face of such
intervening developments while a case is pending a decision on the merits is to “vacate the judgment below
and remand with a direction to dismiss.” United States
v. Munsingwear, Inc., 340 U.S. 36, 39 (1950). Where
mootness arises before this Court has completed its review, vacatur ensures that no party is “prejudiced by a
[lower-court] decision which in the statutory scheme
was only preliminary,” and “prevent[s] a judgment, unreviewable because of mootness, from spawning any legal consequences.” Id. at 40-41.
No persuasive reason exists to depart from that ordinary practice here. The legal consequences that
would result from simply dismissing the writ of certiorari in this case without vacating the judgment below
are evident. If this Court were to allow the district
court’s order to take effect, the Department of Justice
would be compelled to provide the Committee with access to secret grand jury materials, even though the basis on which the Committee applied for access to the materials, and on which the courts below ordered that the
materials be provided to the Committee, has ceased to
exist. Moreover, the court of appeals’ decision—in holding that Rule 6(e)(3)(E)(i) authorized disclosure to the
Committee and that the standard of particularized need

5
under Rule 6(e) had been satisfied—could have important “legal consequences” for future disputes if it
were allowed to remain in place without further consideration and resolution of the relevant issues by this Court.
Munsingwear, 340 U.S. at 41. Given this Court’s determination that the court of appeals’ decision warranted
plenary review, and the significant superseding developments that have occurred since this Court made that
determination, the court of appeals’ judgment and the
district court’s order should now be vacated.
If an application for access to grand jury materials
for use in an impeachment investigation should arise
and be pressed again at some future time, there will be
an occasion then for the parties to consider and articulate their positions on the relevant issues, and for the
courts to decide those issues, in the context of a live and
concrete dispute. The sound course now, however, is for
the Court simply to restore the status quo ante.
* * * * *
The judgment of the court of appeals should be vacated and the case should be remanded with instructions to vacate the district court’s order authorizing and
directing the Department of Justice to provide the
grand jury materials to the House of Representatives
Committee on the Judiciary.
Respectfully submitted.
EDWIN S. KNEEDLER
Deputy Solicitor General*

JUNE 2021

* The Acting Solicitor General is recused in this case.

